Memorandum from the Office of the Inspector General



September 28, 2007

Patrick J. Asendorf, LP 6B-C

FINAL REPORT – INSPECTION 2007-10982 – REVIEW OF TVA NUCLEAR MEDICAL
SERVICES



We initiated an inspection to determine if the objectives of TVA Nuclear Medical Services
(TVAN Medical) program are being met and assess compliance with applicable regulations.
In summary, we found no stated objectives, policies, or procedures relating specifically to
TVAN Medical. In addition, varying services are being performed at the TVAN Medical site
offices, and supervision of nurse practitioners may not be adequately ensured.

BACKGROUND

TVAN Medical currently has site offices at Browns Ferry Nuclear Plant (BFN), Sequoyah
Nuclear Plant (SQN), and Watts Bar Nuclear Plant (WBN). These offices can perform fitness
for duty evaluations (e.g., drug and alcohol screening), medical certifications, and worker
injury and/or illness evaluations. The TVAN Medical staff provides services for all TVAN
employees and some contractors. Staff at site offices includes a full or part-time physician;
nurse practitioner; registered nurse; medical technician; and additional contract personnel, as
needed.

We initiated this review based on information obtained during another OIG review. In
summary, questions were raised regarding oversight of the nurse practitioners, types of
services to be provided, and required services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our review objective was to determine if program objectives are being met and assess
compliance with applicable regulations. To achieve our objective, we:

•   Reviewed policies and procedures, as well as regulations, to determine the services
    TVAN Medical is required to perform.
•   Reviewed Tennessee and Alabama Nursing Board regulations to determine oversight
    requirements for nurse practitioners.
Patrick J. Asendorf
Page 2
September 28, 2007



•   Interviewed TVAN Medical personnel to determine the objectives and duties of site offices
    and identify the services being performed and key control activities.
•   Reviewed the TVA Medical Examiner’s Guide to identify any specified TVAN Medical
    service requirements.

The scope of our review included only the services being performed by TVAN Medical. This
inspection was conducted in accordance with the “Quality Standards for Inspections.”

FINDINGS

Our review of TVAN Medical found site offices are performing various medical services,
including fitness for duty evaluations and medical exams. However, we found no stated
objectives, policies, or procedures relating specifically to TVAN Medical which may have
contributed to differing duties and services being performed at the TVAN Medical site offices.
We also noted supervision of nurse practitioners may not be adequately ensured.

NUCLEAR MEDICAL PROGRAM OBJECTIVES, POLICIES, AND PROCEDURES

TVA has established SPP-1.2, "Fitness for Duty," and SPP-1.3, "Plant Access and Security,”
which address the completion of fitness for duty exams required by the Nuclear Regulatory
Commission (NRC) and performed by TVAN Medical. We also found TVAN Medical is
performing additional services such as medical certification exams and treatment of
employee/contractor injuries and illnesses. However, no stated objectives, policies, or
procedures have been established relating specifically to TVAN Medical, including oversight
responsibility for nurse practitioners.

TVAN Medical performs fitness for duty and medical certification exams at all three site
offices. In addition to these exams, site offices may offer various other services, including
treatment of employee/contractor injuries and illnesses. Based on interviews of TVAN
Medical personnel, we found the offering of these services to be inconsistent among site
offices. Specifically:

•   The BFN site office provides services to TVA employees and some contractors for worker
    injuries and minor illnesses for return to work purposes. However, the BFN medical office
    will not perform more complex services such as sutures or prescribe medications.
•   The WBN site office provides services to TVA employees for worker injuries and minor
    illnesses for return to work purposes and may perform more complex services such as
    sutures or x-rays for injuries. According to staff, medications are not prescribed at this
    location, and services are not offered to contract employees beyond required exams.
•   The SQN site office provides services to TVA employees and contractors for worker
    injuries and illnesses and may perform more complex services such as sutures.
    Additionally, TVA employees and contractors may be treated with prescription
    medications, either prescribed or dispensed by medical personnel on-site, and/or by
    over-the-counter medications. The SQN site office maintains a small inventory of
    prescription medications.
Patrick J. Asendorf
Page 3
September 28, 2007



Approved injury and illness services offered to TVA employees and contractors do not appear
to have been formally decided upon or communicated to TVAN Medical staff. Additionally,
TVA employees and contractors may not be aware of what services they are allowed to
receive from TVAN Medical.

SUPERVISION OF STAFF

Tennessee and Alabama Nursing Board regulations require that a certain percentage of
charts prepared by nurse practitioners are reviewed by a supervising physician and that the
supervising physician is available to the nurse practitioner. Each TVAN Medical site office has
a different method for ensuring that the proper amounts of charts are reviewed by a physician.
According to TVAN Medical personnel, more than the required percentage of charts are
reviewed; however, no standard method exists for TVAN Medical site offices to ensure/report
the oversight compliance. As a result, it is difficult to ascertain that TVAN Medical is
consistently satisfying requirements. In addition, we were told that part-time physicians may
not always be readily available to nurse practitioners.

ADDITIONAL INFORMATION – MEDICAL EXAMINER’S GUIDE

The TVA Medical Examiner’s Guide provides guidelines for the completion of NRC required
exams for specific jobs. TVA Medical staff suggested during interviews that the Medical
Examiner’s Guide is outdated and needs revision. According to Nuclear Medical staff, a
problem evaluation report (PER) has been initiated for the revision of the Medical Examiner’s
Guide. We verified and reviewed PER 117738, titled Medical Examiners Guide Revisions.

RECOMMENDATIONS

The Manager of Nuclear Security should:

•   Establish written policies and/or procedures for TVAN Medical which include (1) program
    objectives and (2) approved services to be offered at onsite medical facilities.
•   Consider establishing a method for reporting/ensuring proper supervision of nurse
    practitioners.
•   Follow up on the PER initiated for the revision of the Medical Examiners Guide.
The subject final report is being provided for your review and action. Please advise us of your
planned action in response to our findings within 60 days of the date of this report.

                      -      -       -      -       -      -       -

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information that you recommend be withheld. If you have any questions
or wish to discuss our observations, please contact Michael A. Driver, Project Manager,
at (423) 751-8158 or Gregory C. Jaynes, Deputy Assistant Inspector General,
Inspections, at (423) 751-7821.
Patrick J. Asendorf
Page 4
September 28, 2007



We appreciate the courtesy and cooperation received from your staff during the inspection.




Ben R. Wagner
Deputy Inspector General
ET 3C-K

GCJ:BKA
Attachment
cc (Attachment):
      William R. Campbell, LP 3R-C
      J. Randy Douet, LP 3R-C
      Tom D. Kilgore, WT 7B-K
      John E. Long, Jr., WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Scott W. Tiemeyer, BR 3D-C
      OIG File No: 2007-10982
